No. 19A1035

IN THE

Supreme Court of the United States
_______________
UNITED STATES DEPARTMENT OF JUSTICE,
Applicant,
v.
COMMITTEE ON THE JUDICIARY OF THE
UNITED STATES HOUSE OF REPRESENTATIVES
_______________
On Application for Stay of the Mandate of the
United States Court of Appeals for the District of Columbia Circuit
_______________
OPPOSITION TO APPLICATION FOR A STAY OF MANDATE

_______________

Annie L. Owens
Joshua A. Geltzer
Mary B. McCord
Daniel B. Rice
INSTITUTE FOR CONSTITUTIONAL
ADVOCACY AND PROTECTION
Georgetown University Law Center
600 New Jersey Avenue N.W.
Washington, D.C. 20001
(202) 662-9042
ao700@georgetown.edu

Douglas N. Letter
Counsel of Record
Todd B. Tatelman
Megan Barbero
Josephine Morse
Adam A. Grogg
Jonathan B. Schwartz

OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

Counsel for Committee on the Judiciary of the
United States House of Representatives

TABLE OF CONTENTS
STATEMENT ................................................................................................................. 3
ARGUMENT .................................................................................................................. 9
I.

This Court Should Deny A Stay Of The Mandate Pending Certiorari ............. 9
A.

DOJ Cannot Show A Reasonable Probability That This Court Will
Grant Certiorari ..................................................................................... 10

B.

DOJ Cannot Establish A Fair Prospect That This Court Will
Reverse The Court Of Appeals’ Decision ............................................... 13

C.

II.

1.

The Court of Appeals Correctly Determined That A Senate
Impeachment Trial Is A Judicial Proceeding ............................. 14

2.

The Court of Appeals Faithfully Applied This Court’s
Particularized-Need Test To The Impeachment Context .......... 19

Any Harm That Releasing The Materials Would Cause DOJ Is
Far Outweighed By The Additional Irreparable Harm That A
Lengthy Stay Would Cause The Committee And The Public .............. 26

If The Court Grants A Stay, It Should Order Expedited Briefing On
DOJ’s Forthcoming Petition For Certiorari ..................................................... 30

CONCLUSION............................................................................................................. 31

OPPOSITION TO APPLICATION FOR A STAY OF MANDATE
The Department of Justice does not meet the standard for a stay of the
mandate pending disposition of its petition for a writ of certiorari, and its
application for a stay should therefore be denied. At bottom, DOJ has failed to
demonstrate that this Court’s review would be warranted here.
This case involves the correctness of an order by Chief Judge Howell (based
in part on an exercise of her discretion) for disclosure to the House Committee on
the Judiciary of a limited set of grand-jury materials for use in the Committee’s
ongoing Presidential impeachment investigation. The decision by the court of
appeals affirming that district court order is unanimous on the question DOJ plans
to bring before this Court: whether an impeachment trial in the Senate is a “judicial
proceeding” for purposes of one of the exceptions to grand-jury secrecy articulated in
Federal Rule of Criminal Procedure 6(e). There is no conflict with any decision of
this Court; there is no conflict among the circuits; and the sole question at issue
likely will arise only rarely. DOJ’s forthcoming certiorari petition therefore will be
merely a call for error correction, which is generally not a basis for review by this
Court. And the correction that DOJ seeks does not warrant plenary consideration
by this Court, particularly given that it can be accomplished through a rule
amendment.
In any event, the decision below was plainly correct to reject the newly
developed position that DOJ has advocated here, after decades of taking the
opposite view that Congress can indeed legally obtain grand-jury materials in
connection with impeachment proceedings.

Furthermore, any harm to DOJ from the limited disclosure to the Committee
here is far outweighed by the harm to the Committee and the public from further
delay. The grand-jury material to be disclosed does not belong to DOJ, and the
grand-jury investigation at issue is done. In addition, the Committee has adopted
procedures—which both the district court and the court of appeals found
sufficient—to protect the confidentiality of the material. And, tellingly, DOJ makes
no argument that a stay of disclosure to the Committee is necessary to protect
ongoing criminal investigations.
By contrast, the Committee and the public continue to suffer grave and
irreparable injury each additional day the district court’s order is prevented from
going into effect: the Committee is being deprived of the information it needs to
exercise its weighty constitutional responsibility. The Committee first requested
this information from DOJ more than a year ago. The district court issued its
disclosure order more than six months ago. If DOJ’s request for a stay is granted,
DOJ need not file its certiorari petition until August 2020,1 and therefore this Court
likely would not determine whether to grant or deny that petition until at least
October 2020. This substantial delay will seriously endanger the Committee’s
ability to complete its impeachment investigation during the current Congress—
which ends not long thereafter on January 3, 2021.

See Order, 589 U.S. — (Mar. 19, 2020),
https://www.supremecourt.gov/orders/courtorders/031920zr_d1o3.pdf.
1

2

This Court accordingly should deny the stay. If it does not, the Committee
requests that the Court condition any stay on a requirement that DOJ file its
certiorari petition by June 1, 2020, to ensure that this Court will be positioned to
grant or deny that petition during this Term.
STATEMENT
This case concerns a district court order under Federal Rule of Criminal
Procedure 6(e) directing disclosure of a limited amount of grand-jury material
bearing on the Committee’s impeachment investigation of President Donald J.
Trump for misconduct detailed in Special Counsel Robert Mueller’s Report.
1. “The Russian government interfered in the 2016 presidential election in
sweeping and systematic fashion.” Robert S. Mueller III, Report on the
Investigation into Russian Interference in the 2016 Presidential Election, Vol. I at 1
(2019) (Mueller Report), https://www.justice.gov/storage/report.pdf. In July 2016,
the Federal Bureau of Investigation (FBI) began investigating this unprecedented
foreign interference in the American electoral process. Id. In May 2017, the Acting
Attorney General appointed Mueller to serve as Special Counsel to continue the
FBI’s investigation, determine “whether individuals associated with the Trump
Campaign [had] coordinat[ed] with the Russian government,” id., and investigate
other matters “aris[ing] directly from the investigation,” including whether the
President had obstructed justice, id., Vol. I at 8.
At the conclusion of his investigation in March 2019, Special Counsel Mueller
produced a Report describing his findings. Among other things, the Report
concluded that President Trump’s conduct raised serious questions “about whether
3

he had obstructed justice” by attempting to impede the federal investigation into
Russian interference in the 2016 election. Id., Vol. II at 1. But the Report stopped
short of determining whether President Trump obstructed justice in violation of
criminal law, given that a DOJ Office of Legal Counsel opinion provides that “a
sitting President may not be prosecuted” and because Special Counsel Mueller did
not want to “preempt constitutional processes for addressing presidential
misconduct”—i.e., impeachment. Id.
The Attorney General released a redacted version of the report to Congress
and to the public in April 2019. That version of the Mueller Report contains
numerous redactions, including redactions made under Federal Rule of Criminal
Procedure 6(e) to protect the secrecy of grand-jury material. These redactions bear
on whether the President committed impeachable offenses by obstructing the FBI’s
and Special Counsel’s investigation into Russian interference in the 2016 election
and his possible motivations for doing so. See, e.g., id., Vol. I at 85, 93-94, 98, 10002, 110, 111-12; C.A. App. 726-29 (redacted DOJ declaration describing the redacted
grand-jury material in Volume II of the Mueller Report).
2. After the Attorney General released the redacted Mueller Report to
Congress, but declined a series of requests from the Committee for the redacted
material, the Committee issued a subpoena for an unredacted version of the
Mueller Report and certain grand-jury material underlying those redactions. DOJ
refused to comply, but it allowed a limited number of Members of Congress and

4

certain staff to confidentially review all of the redacted material except what DOJ
considered to be grand-jury material.
Although DOJ had long taken the position that Rule 6(e)’s provision
authorizing disclosures “preliminarily to … a judicial proceeding” permits disclosure
of grand-jury material to Congress for use in impeachment, DOJ reversed course in
this matter and for the first time asserted that Rule 6(e) forbids disclosure to the
Committee in connection with an impeachment. See App. 117a-18a n.30.
In June 2019, the House adopted a resolution authorizing the Committee to
file an application under Rule 6(e) to obtain the withheld material. See H. Res. 430,
116th Cong. (2019). On July 26, 2019, Chairman Nadler issued protocols to protect
the confidentiality of any grand-jury material obtained. See C.A. App. 122-23.
These protocols, which are similar to those used to protect grand-jury and other
confidential materials during the Nixon impeachment investigation, limit staff
access to grand-jury material; require storage of such material in a secure location;
and provide that such material may not be publicly disclosed absent a majority vote
by the Committee. See id.
3. In July 2019, the Committee filed an application with the Chief Judge of
the district court pursuant to Rule 6(e)(3)(E)(i), which permits courts to disclose
grand-jury materials “preliminarily to or in connection with a judicial proceeding.”
The Committee requested release of three categories of withheld grand-jury
material: (1) portions of the Mueller Report redacted under Rule 6(e); (2) any
underlying grand-jury transcripts or exhibits referenced in those redactions; and

5

(3) any underlying grand-jury testimony and exhibits that relate directly to certain
individuals and events described in the Mueller Report. See App. 91a-92a.
On October 25, 2019, the district court granted the Committee’s application
as to the first two categories. App. 151a-52a. The district court first concluded that
Rule 6(e)’s provision authorizing disclosure preliminarily to “a judicial proceeding”
encompasses disclosures in advance of a Senate impeachment trial. App. 96a-137a.
That conclusion was required by “binding D.C. Circuit precedent,” App. 112a, and
confirmed by “historical practice, the Federalist Papers, the text of the Constitution,
and Supreme Court precedent,” App. 101a.
The district court also found that the Committee established the requisite
“particularized need” for the first two categories of requested material, weighing the
Committee’s need for the withheld material against the interests in grand-jury
secrecy under this Court’s test in Douglas Oil Co. v. Petrol Stops Nw., 441 U.S. 211,
218-23 (1979). See App. 137a-49a. The district court found that the Committee’s
“especially particularized and compelling” need for the material in its impeachment
investigation, App. 140a, outweighed any interests in maintaining secrecy, which
were diminished once “the Special Counsel’s investigation, and attendant grand
jury work, concluded,” App. 146a. It therefore ordered a “focused and staged
disclosure” of the first two categories of material, App. 139a, to be followed, as
necessary, by disclosure of the third category upon a showing of particularized need,
App. 149a.

6

4. The court of appeals granted an administrative stay of the district court’s
order, App. 160a, which remained in place through expedited proceedings on the
merits, culminating in the court of appeals ruling affirming the district court on
March 10, 2020.
While DOJ’s appeal was pending, the House adopted two Articles of
Impeachment against President Trump for abuse of power in connection with a
scheme to coerce Ukraine to investigate his political rival, and his obstruction of
Congress. The President was acquitted after a trial on those Articles in the Senate.
The Committee’s impeachment investigation related to obstruction of justice
pertaining to the Russia investigation is ongoing. As the Committee has explained,
it “has continued and will continue those investigations consistent with its own
prior statements respecting their importance and purposes.” H. Rep. No. 116-346,
at 159 n.928 (2019). The Mueller Report grand-jury material remains “central to
the Committee’s ongoing inquiry into the President’s conduct. If this material
reveals new evidence supporting the conclusion that President Trump committed
impeachable offenses that are not covered by the Articles adopted by the House, the
Committee will proceed accordingly—including, if necessary, by considering
whether to recommend new articles of impeachment.” Comm. Supp. Br. 17 (Dec.
23, 2019).
5. On March 10, 2020, the court of appeals affirmed the district court’s order
in a 2-1 decision. App. 1a-75a. All three members of the panel agreed on the
answer to the primary legal question presented, and the only one on which DOJ

7

intends to seek certiorari: whether a Senate impeachment trial is a “judicial
proceeding” for purposes of Rule 6(e)(3)(E)(i). See App. 25a-26a; App. 33a-34a (Rao,
J., dissenting); Stay App. 2. Like the district court, the court of appeals explained
that both “circuit precedent,” App. 6a, 11a-12a (citing McKeever v. Barr, 920 F.3d
842 (D.C. Cir. 2019), and Haldeman v. Sirica, 501 F.2d 714 (D.C. Cir. 1974) (en
banc)), as well as “traditional tools of statutory construction,” “constitutional text,”
and “historical practice” establish that a Senate impeachment trial is a “judicial
proceeding” under the Rule, App. 12a-14a.
The court of appeals also concluded that the district court did not abuse its
discretion when it found that the Committee had established the required
“particularized need” for the grand-jury materials that it ordered disclosed. The
court of appeals held that the district court had properly balanced the Committee’s
need for the information with any interests in continued secrecy under the Douglas
Oil test. App. 19a-25a. Especially given the Committee’s “special protocols to
restrict access to the grand jury materials in order to maintain their secrecy,” App.
20a, the court held that the district court had properly applied this Court’s
precedent to balance the competing interests.
Judge Rao dissented, but not on the issues on which DOJ intends to seek this
Court’s review. She “agree[d] with the majority that the Committee’s petition could
fit within Rule 6(e)’s ‘judicial proceeding’ exception because it sought the grand jury
materials preliminary to a possible Senate impeachment trial, which has always
been understood as an exercise of judicial power.” App. 33a-34a (Rao, J.,

8

dissenting). Judge Rao also agreed with the majority that, “[a]t the time of its
decision, the district court did not abuse its discretion in concluding that the
Committee had shown a ‘particularized need’ for the grand jury materials,” App.
35a, but she believed that the case nevertheless should be remanded, in light of the
developments since the district court first ruled, for the court to determine whether
release of the materials was still warranted, App. 36a.
6. DOJ did not seek rehearing en banc in the court of appeals and instead
sought a stay of the mandate pending the final disposition of a petition for a writ of
certiorari. With no noted dissent, the court of appeals denied the requested stay.
See App. 163a. Subsequently, the Chief Justice administratively stayed the court of
appeals’ mandate pending receipt of this response and further order of the Chief
Justice or of the Court. See Order (May 8, 2020).
ARGUMENT
I.

This Court Should Deny A Stay Of The Mandate Pending Certiorari
This Court should deny DOJ’s application to stay the mandate. DOJ “must

demonstrate (1) a reasonable probability that this Court will grant certiorari, (2) a
fair prospect that the Court will then reverse the decision below, and (3) a likelihood
that irreparable harm [will] result from the denial of a stay.” Maryland v. King,
567 U.S. 1301, 1302 (2012) (Roberts, C.J., in chambers) (quotation marks omitted).
These conditions “are necessary” but “not necessarily sufficient” to grant a stay.
Barnes v. E-Sys., Inc. Grp. Hosp. Med. & Surgical Ins. Plan, 501 U.S. 1301, 1304
(1991) (Scalia, J., in chambers).

9

If these conditions are met, this Court also must “balance the equities—[by]
explor[ing] the relative harms to applicant and respondent, as well as the interests
of the public at large.” Id. at 1305 (quotation marks omitted). “Where there is
doubt, it should inure to the benefit of those who oppose grant of the extraordinary
relief which a stay represents.” Williams v. Zbaraz, 442 U.S. 1309, 1316 (1979)
(Stevens, J., in chambers).
DOJ cannot satisfy this standard. The case plainly does not warrant this
Court’s review—there is no conflict with any decision of this Court, there is no
circuit split, and the district court ordered only limited disclosure in a context that
rarely arises. And the decision below was correct: the court of appeals’
interpretation of “judicial proceeding” is supported by the Constitution, historical
practice, and Rule (6)(e) itself, and the court’s application of the particularized-need
test comported fully with the standard established by this Court. DOJ has failed to
establish that the disclosure of the grand-jury materials would harm any interest
DOJ has in maintaining grand-jury secrecy. By contrast, the potentially lengthy
stay sought by DOJ would seriously and irreparably harm the public and the
House, whose Article I functions remain stymied.
A. DOJ Cannot Show A Reasonable Probability That This Court Will
Grant Certiorari
This case does not warrant this Court’s review. The court of appeals’ opinion
does not conflict with a decision of this Court or any other circuit. See S. Ct. R.
10(a), (c). On the primary legal question—the meaning of the term “judicial
proceeding” in Rule 6(e)(3)(E)(i)—the panel was unanimous. All three judges,

10

including Judge Rao, agreed that a Senate impeachment trial is a “judicial
proceeding” for purposes of Rule 6(e)’s exception for disclosures of grand-jury
material “preliminarily to … a judicial proceeding.” App. 25a-26a; App. 33a-34a
(Rao, J., dissenting). No circuit has held otherwise, and this holding accords with
decades of precedent as well as DOJ’s own longstanding position before this case.
See McKeever, 920 F.3d 842, cert. denied, 140 S. Ct. 597 (2020); Haldeman, 501 F.2d
714; see also In re Grand Jury Proceedings of Grand Jury No. 87-1, 669 F. Supp.
1072, 1075-76 (S.D. Fla. 1987).
The most that DOJ can muster is an assertion (at 14) that the court of
appeals’ reading of the term “judicial proceeding” to encompass a Senate
impeachment trial is “in serious tension” with language referring to “litigation” in
United States v. Baggot, 463 U.S. 476, 480 (1983). But as discussed below, the court
of appeals’ decision is fully consistent with Baggot, which said nothing at all about
disclosure to Congress.
Furthermore, this Court’s review is unwarranted because the issues
presented here almost certainly will arise only rarely. Impeachments are rare, and
impeachments requiring the use of grand-jury materials are rarer still. It is not
likely that a decision by this Court in this case would provide guidance for many
future cases.
DOJ nonetheless contends (at 14) that the court of appeals’ opinion requires
review because it “create[s] serious separation-of-powers concerns.” Not so. This
case does not pit the political branches against one another. As the court of appeals

11

explained, “grand jury records are court records,” App. 9a, and “it is the district
court, not the Executive or [DOJ], that controls access to the grand jury materials at
issue here,” App. 10a. And DOJ acknowledges (at 15) that the scope of the grandjury secrecy rules is “ordinarily” best left to the Advisory Committee on Criminal
Rules, which can recommend amendments to the rules that this Court can accept or
reject. See 28 U.S.C. § 2071 et seq.
Nor does this case “create” separation-of-powers concerns between Congress
and the courts. As the court of appeals noted, since Rule 6(e) was enacted in 1946,
“federal courts have authorized the disclosure of grand jury materials to the House
for use in impeachment investigations involving two presidents and three federal
judges.” App. 14a. To our knowledge, no court has ever turned down a request for
grand-jury materials by Congress in connection with an impeachment.
The court of appeals’ decision here merely preserves the separation-of-powers
status quo reflected in those cases, including the House’s prerogative to obtain the
information necessary to carry out its core Article I functions. Until this litigation,
DOJ had, for decades, agreed that courts have authority to order disclosure of
grand-jury materials for Congress’s use in impeachment proceedings. See App.
117a-18a n.30. As the court of appeals observed, “[i]t is only the President’s
categorical resistance and the Department’s objection that are unprecedented.”
App. 14a. Indeed, DOJ advanced its previous position as part of a successful effort
to persuade the D.C. Circuit that courts lack inherent authority to order disclosure
of grand-jury material outside the Rule’s enumerated exceptions—and the

12

Committee argued in this case that DOJ is judicially estopped from pressing its new
position. See 117a-18a n.30 (noting but declining to address estoppel arguments
given the court’s decision on the merits). The potential for estoppel makes this case
an especially poor vehicle for the Court’s review.
Moreover, as explained below, the court of appeals in this case correctly
applied this Court’s precedent to ensure that the Committee had an appropriately
particularized need for the materials without the second-guessing of the House’s
impeachment process that DOJ claims could create separation-of-powers concerns.
DOJ’s remaining arguments regarding the proper interpretation of Rule 6(e)
(at 14-33) were correctly rejected by both courts below. DOJ asks this Court to
engage in error correction, but the “Court is not primarily concerned with the
correction of errors in lower court decisions.” Stephen M. Shapiro et al., Supreme
Court Practice § 4.17 (11th ed. 2019). And to the extent that DOJ’s application
attempts to cast doubt on whether the panel correctly concluded that the district
court did not abuse its discretion in applying the Rule 6(e) standard to the facts of
this case, that claim is a fact-bound determination that does not warrant this
Court’s review. See App. 15a-16a; S. Ct. R. 10.
B. DOJ Cannot Establish A Fair Prospect That This Court Will
Reverse The Court Of Appeals’ Decision
The court of appeals correctly decided this case, and DOJ’s arguments to the
contrary are meritless. DOJ thus cannot establish a fair prospect that, even if this
Court were to grant certiorari, it would prevail on the merits.

13

1. The Court of Appeals Correctly Determined That A Senate
Impeachment Trial Is A Judicial Proceeding
a. As all three members of the court of appeals panel recognized, Rule
6(e)(3)(E)(i)’s exception to the general rule of grand-jury secrecy for use of grandjury material “preliminarily to or in connection with a judicial proceeding”
encompasses disclosures to the House preliminary to a Senate impeachment trial.
The Constitution makes clear that a Senate impeachment trial is a judicial
proceeding and therefore fits within Rule 6(e)(3)(E)(i)’s exception. Article I provides
that “[t]he Senate shall have the sole Power to try all Impeachments.” U.S. Const.,
Art. I, § 3, cl. 6 (emphasis added). It further states that when the President “is
tried, the Chief Justice shall preside.” Id. (emphases added). It describes a
“Judgment in Cases of Impeachment.” Id., Art. I, § 3, cl. 7 (emphases added). And
it refers to “the Party convicted.” Id. (emphasis added). Article III similarly
describes an impeachment trial as a type of “Trial of all Crimes.” Id., Art. III, § 2,
cl. 3 (emphases added).
The Federalist Papers and this Court’s precedent dating to the Founding
confirm that impeachment trials have long been understood as an exercise of
judicial power. See The Federalist No. 47 (James Madison) (describing the Senate
as the “depositary of judicial power in cases of impeachment” (emphasis added));
The Federalist No. 65 (Alexander Hamilton) (referring to the “judicial character [of
the Senate] as a court for the trial of impeachments” (emphases added)); Hayburn’s
Case, 2 U.S. 408, 410 n.* (1792) (“[N]o judicial power of any kind appears to be
vested [in Congress], but the important one relative to impeachments.”); Kilbourn v.

14

Thompson, 103 U.S. 168, 191 (1880) (“The Senate … exercises the judicial power of
trying impeachments[.]” (emphasis added)); Marshall v. Gordon, 243 U.S. 521, 547
(1917) (Congress’s contempt power can be “transformed into judicial authority”
when a “committee contemplat[es] impeachment” (emphasis added)).
Senate practice bears this out: the Senate ceases its legislative functions and
convenes as a “court of impeachment” when sitting for that purpose. See 166 Cong.
Rec. S289 (daily ed. Jan. 21, 2020) (Chief Justice convening the Senate “as a Court
of Impeachment”); see also S. Doc. No. 106-4, Vol. II at 1142 (1999) (ruling by Chief
Justice Rehnquist during President Clinton’s impeachment trial that Senators
should not be referred to as jurors, because “the Senate is not simply a jury; it is a
court in this case”). As one of President Trump’s attorneys told the Senate during
the President’s impeachment trial, “for literally decades, this body was referred to
in this context as the High Court of Impeachment. So we are not a legislative
Chamber during these proceedings…. We are in court.” 166 Cong. Rec. S580 (daily
ed. Jan. 27, 2020) (statement of Kenneth Starr).
History confirms this interpretation of Rule 6(e). The Rule was adopted to
“codif[y] the traditional rule of grand jury secrecy” that was applied at common law.
United States v. Sells Eng’g, 463 U.S. 418, 425 (1983). That common-law history
includes numerous examples of Congress obtaining grand-jury material for use in
investigations, including impeachment inquiries. See App. 14a; see also, e.g., 3
Hinds’ Precedents of the House of Representatives § 2488, at 984-85 (1907)
(reflecting that, as early as 1811, a grand jury in Mississippi forwarded to the

15

House its presentment of charges against a federal judge for use in an impeachment
investigation). Since the enactment of Rule 6(e), the federal courts have repeatedly
authorized disclosure of grand-jury material to Congress for use in impeachment
proceedings. See App. 14a (collecting cases). That history both reflects and
confirms the widely held understanding that the Rule codifies, rather than alters,
traditional practice.
Moreover, the Rule uses the term “judicial proceeding”—not “court
proceeding.” If the Advisory Committee and Congress had wanted to restrict this
exception to only those proceedings that take place in a courtroom, they would have
so stated. Instead, the Rule uses a broader term that, on its face, encompasses all
proceedings of a judicial nature. Indeed, lower courts have long given the term
“judicial proceeding” a “broad interpretation” that may include “every proceeding of
a judicial nature before a court or official clothed with judicial or quasi judicial
power.” In re Sealed Motion, 880 F.2d 1367, 1380-81 (D.C. Cir. 1989) (per curiam)
(quotation marks omitted); see also Doe v. Rosenberry, 255 F.2d 118, 120 (2d Cir.
1958) (Hand, J.) (bar disciplinary proceeding); In re Special February 1971 Grand
Jury v. Conlisk, 490 F.2d 894, 897-98 (7th Cir. 1973) (police disciplinary
proceedings); Patton v. Comm’r of Internal Revenue, 799 F.2d 166, 172 (5th Cir.
1986) (tax court proceedings).
The structure of Rule 6(e) further supports this conclusion. The other
exceptions in Rule 6(e) permit disclosure of grand-jury material in circumstances
comparable to this one—where government officials seek the material for use in

16

connection with their official duties. Because statutory terms “are often known by
the company they keep,” Lagos v. United States, 138 S. Ct. 1684, 1688-89 (2018), the
judicial-proceedings exception should be understood to allow for disclosure to the
Committee for use in impeachment.
b. DOJ’s arguments to the contrary are wrong. DOJ claims (at 14) the court
of appeals’ reading of the term “judicial proceeding” to encompass a Senate
impeachment trial is “in serious tension” with this Court’s decision in Baggot. But
DOJ misreads that case, which said nothing at all about disclosures of grand-jury
material to Congress for impeachment purposes. Baggot involved a request for
grand-jury materials by the Internal Revenue Service (IRS) for use in a taxpayer
audit. 463 U.S. at 478. Both parties agreed that the “judicial proceeding” for
purposes of Rule 6(e) in that case was possible litigation in the form of a
redetermination proceeding or refund suit that could result from the audit. Id. at
479. Therefore, the only question presented was “whether disclosure for use in an
IRS civil audit is ‘preliminar[y] to’ a redetermination proceeding or a refund suit
within the meaning of” Rule 6(e)—not whether those proceedings were “judicial
proceedings.” Id.
In context, this Court’s statement that the Rule contemplates “uses related
fairly directly to some identifiable litigation” was a reference to the relationship
between the use for which the material was sought (there, a civil audit) and the
identifiable judicial proceeding (there, a refund suit). Id. at 480. It did not express

17

a limitation on the types of proceedings that can fall within Rule 6(e)’s scope. Id.;
see also id. at 479 n.2.
DOJ also incorrectly asserts (at 18) that other uses of “judicial proceeding” in
Rule 6(e)(3)(F) and (G) appear to refer to court proceedings and “would make little
sense” if applied to a Senate impeachment trial. Rule 6(e)(3)(F) merely requires
that courts receiving disclosure petitions afford the “parties to the judicial
proceeding” an opportunity to be heard. There is no reason that requirement
cannot apply equally to an impeachment proceeding. Indeed, in this case, the
Committee served its petition on the President (the “party” to the impeachment
proceedings), who had an opportunity to be heard before the district court had he
wished to file independently of DOJ. See Certificate of Service (July 30, 2019), Dkt.
No. 3. Rule 6(e)(3)(G), in turn, directs that “[i]f the petition to disclose arises out of
a judicial proceeding in another district,” the petitioned court must generally
“transfer the petition to the other court” (emphasis added). The use of the word “if”
contemplates that not all disclosure petitions “arise[] out of a judicial proceeding in
another district.” Indeed, the Advisory Committee has explained that this transfer
provision applies only to proceedings in “federal district court in another district,”
and not to proceedings in state courts. Fed. R. Crim. P. 6(e)(3)(E) advisory comm.
note on 1983 amend. Yet this does not mean that state court proceedings are not
“encompassed within” the judicial proceeding exception; it is well-established that
they are. See id. So too with impeachment proceedings.

18

Finally, in light of its recent change in position, DOJ dismisses (at 23-24) the
historical examples of disclosure of grand-jury information to Congress as not
dispositive. But this Court should not discount the lower courts’ decisions simply
because they agreed with DOJ’s prior view. To the contrary, the decisions only
underscore that DOJ had it right the first time. Although DOJ agreed in those
cases that Congress was entitled to the grand-jury material, the question whether
disclosure to Congress was appropriate was vigorously litigated in each case and, in
turn, considered and decided by the court in each case.2 DOJ cannot now use its
recent change in position—and the purported separation-of-powers concerns that it
raised for the first time before the court of appeals in this very case—as an excuse
to discard nearly 50 years of case law.
2. The Court of Appeals Faithfully Applied This Court’s
Particularized-Need Test To The Impeachment Context
In considering an application for grand-jury material under Rule 6(e)(3)(E)(i),
a court must analyze the requester’s “particularized need” for the material. See
Douglas Oil, 441 U.S. at 222-23. That standard can be faithfully applied where the
judicial proceeding is a Senate impeachment trial, as the courts below did here.

See, e.g., In re Request for Access to Grand Jury Materials Grand Jury No.
81-1, Miami, 833 F.2d 1438, 1442 (11th Cir. 1987) (noting that Judge Hastings
opposed the disclosure of grand-jury materials for use in his impeachment trial and
argued that such “an ‘inter-branch transfer’ … should be closely scrutinized under a
separation of powers analysis”); Haldeman, 501 F.2d at 715 (“The position of both
petitioners essentially is that the District Judge should not disclose to the Judiciary
Committee evidence taken before the grand jury that returned the indictment
against petitioners.”); In re Report & Recommendation of June 5, 1972 Grand Jury,
370 F. Supp. 1219, 1221 (D.D.C. 1974) (“[A]ttorneys for seven persons named in an
indictment returned by the same June, 1972 Grand Jury … have generally objected
to any disclosure of the Report[.]”).
2

19

DOJ’s suggestion that the court of appeals applied a different and incorrect
standard misunderstands the court’s careful opinion. The court of appeals
meticulously applied this Court’s precedents while avoiding any of the separationof-powers concerns that DOJ speculates could arise when a court examines the
House’s need for information for use in impeachment.
a. To establish the required “particularized need,” parties seeking grand-jury
material under Rule 6(e) must show (1) “that the material they seek is needed to
avoid a possible injustice in another judicial proceeding,” (2) “that the need for
disclosure is greater than the need for continued secrecy,” and (3) “that their
request is structured to cover only material so needed.” Id. at 222. These factors
require a “balanc[ing],” id. at 223, to “accommodate the competing needs for secrecy
and disclosure,” id. at 221. The relevant “standard is a highly flexible one,
adaptable to different circumstances and sensitive to the fact that the requirements
of secrecy are greater in some situations than in others.” Sells Eng’g, 463 U.S. at
445. A district court’s application of this standard is committed to the court’s
“considered discretion.” Douglas Oil, 441 U.S. at 228.
As discussed below, this flexible standard can be applied where the disclosure
is preliminary to a Senate impeachment trial. But to the extent DOJ’s argument is
intended to cast doubt on whether the particularized need test is satisfied here—a
fact-bound inquiry subject to a deferential standard of review, see id. at 223
(“emphasiz[ing]” that courts applying the particularized need test are “infused with
substantial discretion”)—that suggestion is unfounded.

20

As the court of appeals explained, the district court did not abuse its
discretion when, after “reviewing in detail the findings in the Mueller Report,” it
determined “that any remaining secrecy interests in the redacted grand jury
materials were readily outweighed by the Committee’s compelling need for the
materials.” App. 20a; see Douglas Oil, 441 U.S. at 223. As the court of appeals
explained, the Committee has a compelling need for the materials “in order to
determine whether, or to what extent, links existed between the Russian
government’s efforts to interfere in the 2016 United States presidential election
proceedings and individuals associated with President Trump’s election campaign.”
App. 20a. And the fact that the “need for grand jury secrecy is reduced after the
grand jury has concluded,” App. 19a, coupled with “the Committee’s adoption of
special protocols to restrict access to the grand jury materials in order to maintain
their secrecy,” App. 20a, diminishes the competing need for secrecy.
There is no merit to DOJ’s additional argument (at 31) that the Committee
no longer has a particularized need for the requested grand-jury material because
the President was impeached and acquitted on separate Articles of Impeachment
several months ago. The Committee’s investigation did not cease with the
conclusion of the impeachment trial. The Committee “has continued and will
continue those investigations consistent with its own prior statements respecting
their importance and purposes.” H. Rep. No. 116-346, at 159 n.928. The withheld
material remains central to the Committee’s ongoing investigation into the
President’s conduct. If this material reveals new evidence supporting the

21

conclusion that President Trump committed impeachable offenses that are not
covered by the Articles adopted by the House, the Committee will proceed
accordingly—including, if necessary, by considering whether to recommend new
articles of impeachment. See Comm. Supp. Br. 17.
b. DOJ is also wrong to argue (at 24-32) that the particularized-need test
simply cannot be applied in the impeachment context because (1) distinguishing
between types of judicial proceedings and tailoring the test accordingly is
inappropriate; (2) in attempting to do so here, the court of appeals applied a mere
relevance standard inconsistent with this Court’s precedent; and (3) any attempt to
apply the correct particularized-need standard runs headlong into separation-ofpowers problems that render the Rule unconstitutional. Each of these contentions
is incorrect.
First, DOJ erroneously asserts (at 28) that it is improper to “distinguish[]
between types of judicial proceedings” in applying the particularized-need test. To
the contrary, taking into account the context and special circumstances of the
request comports with this Court’s instruction that the particularized-need
standard is “highly flexible” and “adaptable to different circumstances.” Sells
Eng’g, 463 U.S. at 445. It also follows this Court’s approach in other cases that
considered the nature of the specific judicial proceeding at issue.
For example, in Dennis v. United States, 384 U.S. 855 (1966), this Court
applied the particularized-need standard to account for the special needs of a
criminal defendant facing trial. In that case, this Court authorized disclosure of the

22

grand-jury testimony of four witnesses, reasoning that the applicant was “entitled
to all relevant aid which is reasonably available” to ascertain the substance of
certain statements at issue in the case. Id. at 872-73 (emphasis added). It reversed
the district court’s refusal to disclose this material, observing that “it is especially
important that the defense, the judge and the jury should have the assurance that
the doors that may lead to truth have been unlocked,” and that the applicant’s
showing of need “goes substantially beyond the minimum required by Rule 6(e) and
the prior decisions of this Court.” Id. at 873; see also United States v. John Doe, Inc.
I, 481 U.S. 102, 113-16 (1987) (authorizing sharing of grand-jury information among
DOJ attorneys and stressing that “public purposes served by the disclosure—
efficient, effective, and evenhanded enforcement of federal statutes”—supported
disclosure to select DOJ attorneys, which “does not pose the same risk of a wide
breach of grand jury secrecy” as disclosure to the public at large).
The court of appeals correctly applied this precedent here, recognizing that
the particularized-need standard can be applied in the impeachment context to
assess need consistent with this Court’s precedent while avoiding any constitutional
questions that might arise from a court “micromanaging” the Committee’s
impeachment investigation. App. 18a.
Second, the court of appeals did not apply a “mere ‘relevance’ standard” or
“hand off all relevant materials” to the Committee as DOJ suggests (at 30 (quoting
App. 18a)). Rather, the court of appeals, after applying the three Douglas Oil
factors described above, affirmed the district court’s order disclosing two of the

23

three discrete categories of specific information that the Committee had requested.
Those categories of information were limited to the text obscured by specific
redactions in the Mueller Report and the portions of the underlying grand-jury
materials related to those specific redactions, which the Committee established
were necessary for its investigation into whether the President obstructed the
Russia investigation. See Douglas Oil, 441 U.S. at 222 (disclosure must be
“structured to cover only material so needed”). The district court did not order, and
the court of appeals did not affirm, a blanket disclosure of all material potentially
relevant to the topics of the Committee’s impeachment investigation. Indeed, the
district court withheld the third category of information requested by the
Committee—any underlying grand-jury testimony and exhibits that relate to
certain individuals and events described in the Mueller Report—pending a separate
showing of particularized need for that specific material. App. 150a.
The court of appeals properly applied the flexible Douglas Oil test. Nothing
more was required. As the court of appeals explained, “courts have required a lineby-line or witness-by-witness determination only in cases where grand jury
materials are needed in a future trial to impeach or refresh the recollection of a
specific witness.” App. 18a. The court of appeals’ approach adhered to this Court’s
precedent.
Third, the court of appeals’ proper application of the particularized-need
standard in this case obviated the potential constitutional issues that DOJ raises.
As the decision below demonstrates, a court can apply the “highly flexible” test from

24

Douglas Oil faithfully, Sells Eng’g, 463 U.S. at 445, without improperly interfering
with Congress’s performance of its impeachment functions, App. 18a. There is,
therefore, no merit to DOJ’s concern (at 26-27) that applying the particularizedneed standard would “require[] federal courts to scrutinize particular theories of
impeachment and weigh the significance of particular evidence under those
theories” in violation of separation-of-powers principles.
DOJ incorrectly argues (at 24-26) that the panel’s approach renders
unconstitutional the portion of Rule 6(e)(3)(E) that authorizes a district court to
disclose grand-jury material “at a time, in a manner, and subject to any other
conditions that it directs.” In DOJ’s view, because the Speech or Debate Clause
limits the types of conditions a court may place on disclosure of grand-jury material
to Congress, this provision of the Rule necessarily will be invalid as applied to
Congress. However, even under DOJ’s reading, a court would retain the ability to
disclose grand-jury material in the time and manner it chooses—for example, by
allowing only in camera review at the court. And to the extent the Constitution
limits a court’s discretion to impose “any conditions it directs” or to enforce
conditions after the disclosure of grand-jury information to Congress, that
limitation does not render the Rule unconstitutional. A court’s actions and
application of the law are always bound by the Constitution. Recognizing that a
rule must be applied consistent with the Constitution does not mean that the rule
itself is unconstitutional.

25

C. Any Harm That Releasing The Materials Would Cause DOJ Is Far
Outweighed By The Additional Irreparable Harm That A Lengthy
Stay Would Cause The Committee And The Public
DOJ has failed to satisfy its burden of establishing irreparable harm. By
contrast, the additional irreparable harm to the Committee and the public from
further delaying the impeachment investigation vastly outweighs any harm to DOJ.
1. DOJ cannot show that it would suffer irreparable harm absent a stay. As
the court of appeals recognized, “grand jury records are court records” and “do not
become Executive Branch documents simply because they are housed with the
Department of Justice.” App. 9a. DOJ itself “has no interest in objecting to the
release of these materials outside of the general purposes and policies of grand jury
secrecy.” App. 10a.
DOJ’s primary argument (at 33) for irreparable harm is that “[o]nce the
government discloses the secret grand-jury records, their secrecy will irrevocably be
lost.” But in this case, unlike other cases involving the disclosure of grand-jury
material where the same harm argument could be made, the Committee has
adopted confidentiality protocols to help maintain the secrecy of the materials.
These protocols—now found sufficiently protective by two courts, see App. 20a,
147a-48a—provide that, absent a further vote, any grand-jury material the
Committee receives will remain confidential.
The protocols are similar to those adopted by the Committee decades ago to
protect impeachment-related materials, including the Watergate Roadmap grandjury report, which the Committee still has not released more than 45 years after
receiving it. See App. 20a-21a. And despite DOJ’s assumption that the Committee
26

could nonetheless authorize reckless public disclosures, “[t]he courts must presume
that the committees of Congress will exercise their powers responsibly and with due
regard for the rights of affected parties.” Exxon Corp. v. FTC, 589 F.2d 582, 589
(D.C. Cir. 1978). The Committee has already done so here with respect to certain
non-Rule 6(e) materials that were redacted in the public version of the Mueller
Report, including materials that related to then-ongoing criminal matters. DOJ
does not assert that the Committee has improperly released that sensitive
information.
Any abstract interest on the part of DOJ in maintaining secrecy is also
substantially diminished at this juncture. DOJ, notably, does not contend that
disclosure of the grand-jury material would harm any pending law-enforcement
matters. And now that the Mueller grand jury has concluded its work, secrecy is no
longer necessary to protect many of the core values that Rule 6(e) serves during
active investigations, such as preventing flight by the targets of criminal
investigations and protecting active witnesses. See Douglas Oil, 441 U.S. at 218-19.
Nor is there a serious risk that future witnesses before grand juries would be less
likely to testify truthfully because of a disclosure in this case. Grand-jury witnesses
testify under oath and can be prosecuted for perjury. DOJ offers no reason to think
witnesses would break that oath based on the remote possibility that portions of
their testimony could one day be disclosed to Congress during an impeachment
investigation.

27

DOJ suggests (at 34) that if the grand-jury materials are disclosed to the
Committee, “there is a serious question whether this case would become moot.”
But, as just discussed, the Committee’s confidentiality protocols were adopted to
protect against disclosure. And the district court, in any event, ordered a staged
release of only two of the three categories of grand-jury material the Committee
requested, explaining that it would release the third category only upon a separate
showing of particularized need. App. 150a. Therefore, “this case” will remain a live
controversy between the parties regardless. See Knox v. Serv. Emps. Int’l Union,
567 U.S. 298, 307-08 (2012) (“[A]s long as the parties have a concrete interest,
however small, in the outcome of the litigation, the case is not moot.”).
2. In contrast to the lack of irreparable injury to DOJ, any further delay in
receiving the materials would cause the Committee and the public to suffer
significant, irreparable harm by impairing the House’s efforts to determine whether
the President committed certain impeachable offenses. Because the inability to
obtain this information infringes on the “sole Power of Impeachment” that the
Constitution vests in the House, see U.S. Const., Art. I, § 2, cl. 5, the lengthy stay
DOJ requests would risk subjecting the Committee to significant constitutional
harm, see Loving v. United States, 517 U.S. 748, 757 (1996) (“[T]he separation-ofpowers doctrine requires that a branch not impair another in the performance of its
constitutional duties.”).
DOJ is wrong (at 35) that the Committee “has not asserted any time-sensitive
need for the requested materials.” At every stage of this litigation, the Committee

28

has made clear the urgency and gravity of its task.3 The Committee initially
requested the grand-jury materials more than a year ago, and it has been more
than six months since the district court ordered them disclosed to the Committee in
a decision that the court of appeals has now affirmed. As the Committee informed
the court of appeals in December, its investigation into President Trump’s
misconduct is ongoing, and the grand-jury material will inform its determination
whether President Trump committed additional impeachable offenses in
obstructing the Russia investigation and whether to recommend new Articles of
Impeachment. See Comm. Supp. Br. 17-18.
The Committee’s investigation continues today and has further developed in
light of recent events. For example, the Committee is investigating the possible
exercise of improper political influence over recent decisions made in the Roger
Stone and Michael Flynn prosecutions, both of which were initiated by the Special
Counsel. See Letter from Jerrold Nadler, Chairman, H. Comm. on the Judiciary, et
al. to Michael E. Horowitz, Inspector General, U.S. Dep’t of Justice (May 8, 2020),
https://perma.cc/799D-2PNY. The Committee has announced its intention to hold a
hearing with the Attorney General—who has failed to appear before the Committee
at any point on any topic during his tenure—on these issues as soon as possible.
See Press Release, H. Comm. on the Judiciary, Chairman Nadler Statement on

See, e.g., C.A. App. 99-101; Opp’n of the Comm. on the Judiciary to DOJ’s
Emergency Mot. for a Stay Pending Appeal 20-22 (Nov. 1, 2019); Corrected Br. of
the Comm. on the Judiciary 2 (Dec. 17, 2019); Opp’n of the Comm. on the Judiciary
to DOJ’s Mot. to Stay Mandate 10-12 (Apr. 29, 2020).
3

29

DOJ’s Decision to Drop Criminal Charges Against Michael Flynn (May 7, 2020),
https://perma.cc/R2QT-AVXB.
A stay would also harm the public interest. DOJ’s own Office of Legal
Counsel has recognized “the public interest in immediately removing a sitting
President whose continuation in office poses a threat to the Nation’s welfare.” A
Sitting President’s Amenability to Indictment and Criminal Prosecution, 24 Op.
O.L.C. 222, 258 (2000). Delaying disclosure of this information has already
significantly injured that interest in prompt action—and further delay would be
irremediable. “[T]he House, unlike the Senate, is not a continuing body.” Eastland
v. U.S. Servicemen’s Fund, 421 U.S. 491, 512 (1975). The current House concludes
in less than eight months. Because DOJ’s petition would not be due until early
August, a stay until this Court decides whether to grant or deny that petition would
seriously endanger the Committee’s ability to complete its investigation during this
time-limited Congress. The public interest would be harmed irreparably if DOJ
runs out the clock on the impeachment process.
These profound and irreparable injuries to the Committee and the public
thus weigh decisively in favor of denying the stay.
II.

If The Court Grants A Stay, It Should Order Expedited Briefing On
DOJ’s Forthcoming Petition For Certiorari
If the Court grants a stay, the Committee requests that the stay be

conditioned on the expedited filing of DOJ’s petition for certiorari. DOJ should be
required to file its petition for a writ of certiorari by June 1, 2020, and the
Committee will then file its brief in opposition by June 15, so that the Court can

30

decide whether to grant or deny the petition at its conference on June 25. See, e.g.,
Trump v. Int’l Refugee Assistance Project, 137 S. Ct. 2080, 2085 (2017) (at Solicitor
General’s request, response to certiorari petition ordered to be filed within 12 days
of petition). Such “expeditious treatment,” Eastland, 421 U.S. at 511 n.17, would
reduce, at least to some extent, the serious harms a further, lengthy stay would
cause to Congress and the public interest.
CONCLUSION
For the foregoing reasons, the application for a stay should be denied.
Respectfully submitted,
Annie L. Owens
Joshua A. Geltzer
Mary B. McCord
Daniel B. Rice
INSTITUTE FOR CONSTITUTIONAL
ADVOCACY AND PROTECTION
Georgetown University Law Center
600 New Jersey Avenue N.W.
Washington, D.C. 20001
(202) 662-9042
ao700@georgetown.edu

Douglas N. Letter
Counsel of Record
Todd B. Tatelman
Megan Barbero
Josephine Morse
Adam A. Grogg
Jonathan B. Schwartz
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
219 Cannon House Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

May 18, 2020

31

